No.
19-109
No. 19-109

IIN
NT
HE
THE

Supreme Court
of the
the United
United States
States
Supreme
Court of
G
GIOVANNI
IOVANNI MONTIJO-DOMINGUEZ,
MONTIJO-DOMINGUEZ,
Petitioner,,
Petitioner
v.
v.
UNITED
STATES
UNITED S
TATES OF AMERICA.
AMERICA.

On
Petition For
A Writ
Writ Of
On Petition
For A
Of Certiorari
Certiorari
To The
States Court
of Appeals
Appeals
To
The United
United States
Court of
For
The Tenth
For The
Tenth Circuit
Circuit
BRIEF
AND THE
THE SENTENCING
BRIEF OF
OF FAMM
FAMM AND
SENTENCING
PROJECT AS
AS AMICI
AMICI CURIAE
IN SUPPORT
OF
PROJECT
CURIAE IN
SUPPORT OF
PETITION
WRIT OF
PETITION FOR
FOR WRIT
OF CERTIORARI
CERTIORARI

MARY
PRICE
MARY P
RICE
FAMM
FAMM
1100 H
1000
1100
H St.
St. NW,
NW, Suite
Suite 1000
Washington, DC
Washington,
DC 20005
20005
(202)
(202) 822-6700
822-6700

P
PETER
ETER G
OLDBERGER
GOLDBERGER
50
50 Rittenhouse
Rittenhouse Place
Place
Ardmore,
Ardmore, PA
19003
PA 19003
(610) 649-8200
649-8200
(610)

H. E
EISENSTEIN
IILANA
LANA H.
ISENSTEIN
Counsel
Counsel of
of Record
Record
E
LAN G
ERSHONI
ELAN
GERSHONI
MARC
MARC A.
A. S
SILVERMAN
ILVERMAN
RACHEL
R
ACHEL A.H.
A.H. H
ORTON
HORTON
DLA PIPER
LLP (US)
DLA
PIPER LLP
(US)
One
One Liberty
Liberty Place
Place
1650
Market St.,
1650 Market
St., Suite
Suite 5000
5000
Philadelphia, PA
Philadelphia,
PA 19103
19103
(215)
656-3300
(215) 656-3300
Ilana.Eisenstein@dlapiper.com
Ilana.Eisenstein@dlapiper.com

Counsel
for Amici
Amici Curiae
Counsel for
Curiae

TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE

1

SUMMARY OF ARGUMENT

2

ARGUMENT

4

A.

B.

C.

Congress Intended the Safety-Valve
Provision to Make Sentencing More
Just, Not as a Vehicle for Enhancing
the Punishment for Individuals Who
Testify in Their Own Defense.

4

The Tenth Circuit's Approach Turns
the Safety Valve into an
Unconstitutional Punishment

6

The Safety Valve Is an Important
Tool in Reducing Excessive and
Unproductive Incarceration in the
Federal Prison System.

CONCLUSION

10
14

11
TABLE OF AUTHORITIES
Page
Cases
Apprendi v. New Jersey,
530 U.S. 466 (2000)

5

Beckles v. United States,
137 S. Ct. 886 (2017)

5

Holmes v. South Carolina,
547 U.S. 319 (2006)

7

Mistretta v. United States,
488 U.S. 361 (1989)

5

In re Oliver,
333 U.S. 257 (1948)

7

Rock v. Arkansas,
483 U.S. 44 (1987)

6, 7, 8

United States v. De La Torre,
599 F.3d 1198 (10th Cir. 2010)

7

United States v. Sherpa
110 F.3d 656 (9th Cir. 1996)

6

Williams v. New York,
337 U.S. 241 (1949)

5

Statutes
18 U.S.C. § 3553(f)

passim

111
21 U.S.C. § 841(b)(1)(A)(ii)

3

First Step Act of 2018, Pub. L. No. 115-391,
1-2
132 Stat. 5194
Violent Crime Control and Law Enforcement
Act in 1994, Pub. L. No. 103-322, 108 Stat,
1796

1

Other Authorities
Charles Colson Task Force on Fed. Corrs.,
Urban Inst., Drivers of Growth in the Federal
Prison Population (2015), https://www.urban.
org/sites/default/files/publication/43681/2000
141-Drivers-of-Growth-in-the-Federal-Prison10
Population.pdf
Fed. Bureau of Prisons, Offense: Statistics
Based on Prior Month's Data as ofAug. 17,
2019, https://www.bop.gov/about/statistics/
statistics_inmate_offenses.jsp
H.R. Rep. No. 460, 103d Cong., 2d Sess.
(1994)

11

5

Jennifer Bronson et al., U.S. Dep't of Justice,
Bureau of Justice Statistics, Drug Use, Dependence and Abuse Among State Prisoners and Jail
Inmates, 2007-2009 (2017), https://www.bjs.
gov/content/pub/pdf/dudaspji0709.pdf.
13
Jeremy Travis et al., The Growth of
Incarceration in the United States: Exploring
Causes and Consequences 153-54 (2014),

iv
http://johnjay.jjay.cuny.edu/nrc/nas_report_
on_incarceration.pdf

13

Julie Samuels et al., Urban Inst., Stemming the
Tide: Strategies to Reduce the Growth and Cut
the Cost of the Federal Prison System (2013),
https://www.urban.org/sites/default/files/
publication/24086/412932 - Stemming-the-TideStrategies-to-Reduce-the-Growth-and-Cut-theCost-of-the-Federal-Prison-System.PDF
10
Michelle Mark, Just 18 Workers Were Guarding
750 Jail Inmates on the Night Jeffrey Epstein
Died by Suicide, Bus. Insider (2019), https://
www.businessinsider.com/jeffrey-epstein-jailguards-chronic-staff-issues-2019-8
10
Nazgol Ghandnoosh, Sentencing Project,
Federal Prisons at a Crossroads (2017),
https://www.sentencingproject.org/publica
tions/federal-prisons-crossroads/

10

Paul H. Robinson & John M. Darley, Does
Criminal Law Deter?A Behavioural Science
Investigation, 24 Oxford J. of Legal Stud.
173, 181 (2004)
12-13
Pew Charitable Trs., More Imprisonment Does
Not Reduce State Drug Problems: Data Show
No Relationship Between Prison Terms and
Drug Misuse (2018), https://www.pewtrusts.
org/en/research-and-analysis/issue-briefs/2018
/03/more-imprisonment-does-not-reduce-statedrug-problems
11-12

V
Pew Charitable Trs., Prison Time Served and
Recidivism (2013), https://www.pewtrusts.org/
en/research-and-analysis/fact-sheets/2013/
12
10/08/prison-time-served-and-recidivism
Rolf Loeber & David P. Farrington, Age-Crime
Curve, in Encyclopedia of Criminology and
Criminal Justice 12-18 (Gerben Bruinsma &
David Weisburd eds., 2014), https://link.
springer.com/referenceworkentry/10.1007%
2F978-1-4614-5690-2_474
11
U.S. Sentencing Comm'n, Mandatory Minimum
Penalties for Federal Drug Offenses 6 (2017),
https://www.ussc.gov/sites/default/files/pdf/resea
rch-and-publications/research-publications/
2017/20171025_Drug-Mand-Min.pdf
9
U.S. Sentencing Comm'n, Quick Facts: Drug
Trafficking (FY 2018), https://www.ussc.gov/si
tes/default/files/pdf/research-and-publications/
quick-facts/Drug_Trafficking_FY18.pdf
9, 11
U.S. Sentencing Comm'n, Recidivism Among
Offenders Receiving Retroactive Sentence
Reductions: The 2007 Crack Cocaine
Amendment (2014), https://www.ussc.gov/sites/
default/files/pdf/research-and-publications/
research-projects-and-surveys/miscellaneous/
20140527_Recidivism_2007_Crack_Cocaine_
12
Amendment.pdf

INTEREST OF
AMICI CURIAE
INTEREST
OF AMICI
CURIAE'1
FAMM
(Families Against
Against Mandatory
Mandatory Minimums)
Minimums)
FAMM (Families
is a
a national,
organization of
of
nonprofit, nonpartisan
nonpartisan organization
is
national, nonprofit,
more
in 1991,
1991, FAMM
members. Founded
Founded in
FAMM
more than
than 75,000
75,000 members.
strives to
and proportionate
strives
to promote
promote fair,
fair, rational,
rational, and
proportionate
sentencing policies,
it challenges
challenges inflexible
inflexible and
and
sentencing
policies, and
and it
excessive
by mandatory
sentencing
excessive penalties
penalties required
required by
mandatory sentencing
laws. FAMM
a broad
broad mission
of creating
creating a
a
laws.
FAMM pursues
pursues a
mission of
more fair
more
fair and
and effective
system that
that respects
effective justice
justice system
respects
American
American values
values of
of individual
accountability and
and
individual accountability
dignity while
keeping communities
By mobilizing
mobilizing
dignity
while keeping
communities safe.
safe. By
prisoners
been adversely
prisoners and
and their
their families
families who
who have
have been
adversely
affected by
by unjust
sentencing polices,
a
affected
unjust sentencing
polices, FAMM
FAMM gives
gives a
voice to
to incarcerated
incarcerated individuals,
their families,
and
families, and
voice
individuals, their
their
communities. From
its founding,
founding, FAMM
their communities.
From its
FAMM has
has
worked to
increase judicial
and was
was
worked
to increase
judicial discretion
discretion and
instrumental in
in the
the effort
and enact
instrumental
effort to
to pass
pass and
enact the
the federal
federal
the passage
passage of
safety valve,
valve, 18
18 U.S.C.
§ 3553(f
with the
of
safety
U.S.C. §
3553(f)) ,, with
the
Violent Crime
and Law
Act
the Violent
Crime Control
Control and
Law Enforcement
Enforcement Act
in
See Pub.
Pub. L.
in 1994.
1994. See
103-322, 108
108 Stat,
Stat, 1796.
1796.
L. No.
No. 103-322,
FAMM’s
advocacy efforts
in Congress
FAMM's advocacy
efforts in
Congress to
to enhance
enhance
safety-valve
relief
were
rewarded
most
recently
with
safety-valve relief were rewarded most recently with
the
of the
the First
Act of
of 2018,
the passage
passage of
First Step
Step Act
2018, Pub.
Pub. L.
L. No.
No.

counsel for
for amici
11 Pursuant
Pursuant to
to Supreme
Supreme Court
Court Rule
Rule 37.6,
37.6, counsel
amici
represent
that they
authored this
brief in
its entirety
represent that
they authored
this brief
in its
entirety and
and that
that
none
of the
or their
counsel, nor
other person
or entity
entity
none of
the parties
parties or
their counsel,
nor any
any other
person or
other than
or their
counsel, made
a monetary
other
than amici
amici or
their counsel,
made a
monetary contribution
contribution
intended to
fund the
the preparation
submission of
of this
brief.
this brief.
intended
to fund
preparation or
or submission
Pursuant
to Rule
counsel for
for amici
Pursuant to
Rule 37.2(a),
37.2(a), counsel
amici also
also represent
represent that
that
the
have consented
consented to
filing of
of this
brief, and
and the
the
the parties
parties have
to the
the filing
this brief,
the filing
parties
were notified
10 days
filing of
of the
the brief
brief of
of
parties were
notified 10
days prior
prior to
to the
amici'sI’ss intention
to file.
amici
intention to
file.

2
115-391, 132 Stat. 5194, which included an expansion
of the safety valve.
The Sentencing Project is a national nonprofit
organization established in 1986 to engage in public
policy research and education on criminal justice
reform. The Sentencing Project is dedicated to
promoting rational and effective public policy on
issues of crime and justice. Through research,
education, and advocacy, the organization analyzes
the effects of sentencing and incarceration policies,
especially mandatory sentencing laws. The
Sentencing Project has published widely cited
scholarship on the effects of federal mandatoryminimum penalties.
Amici advance their respective missions by filing
amicus briefs in important cases. Amici submit this
brief because this case in particular illustrates the
heavy toll extracted by mandatory sentencing laws
and the arbitrary results of different courts'
interpretation of relevant exceptions to mandatoryminimum penalties. Contrary to the statutory text
and legislative history, the court of appeals has
constrained the district court's ability to find facts at
sentencing that would allow individuals to obtain
relief from the damaging and failed system of
mandatory minimum laws.
SUMMARY OF ARGUMENT
This case is about whether defendants who have
testified in their own defense, but are ultimately
convicted, must be deprived of the opportunity for a
reduced sentence under the federal safety-valve
provision, 18 U.S.C. § 3553(f), if they maintain at

3
sentencing that their trial testimony was truthful.
Constrained by Tenth Circuit precedent, the district
court sentenced petitioner Giovanni MontijoDominguez to a mandatory minimum of 10 years
imprisonment under 21 U.S.C. § 841(b)(1)(A)(ii). The
district judge believed petitioner's testimony at trial
that he provided ransom money to his friend—whose
daughter was threatened with kidnapping by a drug
cartel—without knowledge that the money would be
used in a drug transaction. The jury, nonetheless,
convicted petitioner of knowing participation in a drug
conspiracy. Even though the district judge found
petitioner's trial testimony credible, the judge felt
bound by the Tenth Circuit's interpretation of the
safety-valve provision, which categorically denies any
possibility of safety-valve relief to convicted
defendants who stood by their trial testimony that
they lacked a culpable mens rea.
Under the Tenth Circuit's rule, a district judge's
belief in a defendant's candor and her factual findings
at sentencing are subservient to the implicit factual
findings in the jury's verdict, with all the room for
ambiguity that framework entails. The Tenth Circuit's
statutory interpretation is wrong, and the statute's
text, constitutional principles, and policy research
demonstrate why. Congress did not intend that
criminal defendants be punished for testifying in their
own defense. The practical impact of the Tenth
Circuit's rule will be a chilling effect on a defendant's
constitutionally protected right to testify in his own
defense. Because the circuits are split on this issue,
significant sentencing disparities arise based on the
geographical location of the conviction, furthering the
injustice.

4
Amici urge this Court to resolve this circuit split
and undo the harm caused by the Tenth Circuit's
misinterpretation of the safety-valve provision. The
petition for a writ of certiorari should be granted.
ARGUMENT
THE SAFETY-VALVE PROVISION SHOULD
SERVE TO REDUCE EXCESSIVE AND UNJUST
SENTENCES, NOT BE A VEHICLE FOR IMPOSING
THEM.
A. Congress Intended the Safety-Valve Provision
to Make Sentencing More Just, Not as a Vehicle
for Enhancing the Punishment for Individuals
Who Testify in Their Own Defense.
Congress's intent is evident in the statutory text:
the applicability of safety-valve relief is a question for
the sentencing court to decide. 18 U.S.C. § 3553(f) .
The safety valve's language focuses exclusively on the
judge's role at sentencing, stating that "the court shall
impose a sentence . . . without regard to any statutory
minimum sentence, if the court finds at sentencing"
that the defendant satisfies five elements. Ibid.
(emphasis added). The safety valve establishes the
factors a defendant must satisfy, provides the
government
an
"opportunity
to
make
a
recommendation," and, critically, grants the judge the
ultimate decision-making power on whether the
defendant is entitled to relief at sentencing. Ibid.
Congress's focus on the judge's fact-finding role at
sentencing, rather than on the jury verdict, is
consistent with judges' historical role in fashioning a
just sentence. "[B]oth before and since the American

5
colonies became a nation," sentencing judges have
exercised "wide discretion in the sources and types of
evidence used to assist [them] in determining the kind
and extent of punishment to be imposed within limits
fixed by law." See Williams v. New York, 337 U.S. 241,
246 (1949). The purpose of that discretion was, and is,
to "craft individualized sentences, taking into account
the facts of the crime and the history of the defendant."
Beckles v. United States, 137 S. Ct. 886, 893 (2017).
Indeed, "[f]or most crimes, Congress set forth a
range of sentences, and sentencing courts had 'almost
unfettered discretion' to select the actual length of a
defendant's sentence 'within the customarily wide
range' Congress had enacted." Beckles, 137 S. Ct. at
893 (quoting Mistretta v. United States, 488 U.S. 361,
364 (1989)); see also Apprendi v. New Jersey, 530 U.S.
466, 481 (2000) (judicial "discretion was bound [only]
by the range of sentencing options prescribed by the
legislature"). When the safety valve's criteria are met,
the sentencing judge is afforded significant discretion
to determine an appropriate sentence.
Congress enacted the safety valve to restore
judicial discretion because it believed that mandatory
minimums had unduly constrained the judge's role to
consider more lenient sentences in the case of firsttime, minor participants in a drug offense. See Pet. 1820. As one House Report stated: "Ironically, due to the
current operation of mandatory minimums,
mitigating factors that are recognized in the
guidelines and generally are considered in drug cases
do not apply to the least culpable offenders except in
rare instances." H.R. Rep. No. 460, 103d Cong., 2d
Sess. (1994). The Ninth Circuit similarly explained in

6
United States v. Sherpa, "Section 3553(0 requires a
determination by the judge, not the jury," in light of
"the long-standing tradition that sentencing is the
province of the judge, not the jury," considering that
the judge frequently is privy to evidence and
information not presented to a jury and because "there
is no need for a defendant to relate . . . back [his own
knowledge] at sentencing," when knowledge is
"judicially established by a guilty verdict." 110 F.3d
656, 660-62 (9th Cir. 1996).
But, contrary to Congress's intent, the Tenth
Circuit's faulty interpretation of Section 3553(f)
legally forecloses even the least culpable defendants
from benefitting from the safety valve if they maintain
their innocence post-conviction.
B. The Tenth Circuit's Approach Turns the Safety
Valve into an Unconstitutional Punishment.
The Tenth Circuit's rule has the troubling effects
of unconstitutionally burdening defendants' right to
testify at trial.
Defendants have a "fundamental constitutional"
right to testify in their own defense. Rock v. Arkansas,
483 U.S. 44, 51-53 & n.10 (1987). The accused's right
to testify at trial is guaranteed by the Fifth and Sixth
Amendments, and it applies to state-level prosecutions under the Fourteenth Amendment. Id.
"[T]he most important witness for the defense in many
criminal cases is the defendant himself." Id. at 52.
This Court in Rock found that the "necessary
ingredients" of due process include the "right to be
heard and to offer testimony." Id. at 51. Indeed, long
before Rock, this Court held that the "opportunity to

7
be heard" is as basic as a defendant's fundamental
"right to his day in court." In re Oliver, 333 U.S. 257,
273 (1948).
This Court has evaluated state-level evidentiary
rules that infringe on a defendant's right to testify,
and it has found very little space for such rules to
coexist with the U.S. Constitution. See Rock, 483 U.S.
at 52-53. Any restriction on the right to testify "may
not be arbitrary or disproportionate to the purposes
they are designed to serve." Id. at 55-56. For example,
the Rock Court found that a state rule prohibiting
testimony about post-hypnosis recollections at trial
unduly infringed on the right to testify in one's own
defense. Id. at 62; see also Holmes v. South Carolina,
547 U.S. 319, 326 (2006) (collecting cases). An
enhanced risk of punishment serves as such a
restriction.
The Tenth Circuit's decision in United States v. De
La Torre, 599 F.3d 1198 (10th Cir. 2010)—which
furnished the basis for the outcome in this case—
clearly chills a defendant's right to testify at trial and,
thus, unconstitutionally infringes upon that constitutional right. In De La Torre, the Tenth Circuit
held that "[n]o reasonable defendant could claim
safety-valve eligibility based on trial testimony that
necessarily contradicts the conviction itself." Id. at
1206. In other words, in De La Torre, the court of
appeals held that even if a trial judge determines that
a convicted defendant testified fully and truthfully in
his own defense, that defendant is not entitled to
safety-valve relief.

8
Such a rule creates a serious dilemma for any
defendant who desires to exercise his right to testify
at trial. Specifically, before trial, a defendant would
need to weigh the consequences of a jury's rejection of
his testimony regarding his mens rea. If the jury
discredits that testimony, the defendant will need to
choose between forfeiting his safety-valve eligibility
and renouncing his trial testimony. A defendant who
maintains he lacked knowledge of the offense will
thereby face a much harsher sentence if he testifies
and is convicted than if he did not testify at all. Under
the Tenth Circuit's rule, the penalty for testifying in
such a case may be the difference between a sentence
with a mandatory minimum and one without, which
usually equates to many additional years in prison.
Just as in Rock, penalizing a defendant's right to
testify is constitutional only if justified by a sufficient
countervailing legitimate, proportionate purpose for
the rule. None exists here. The Tenth Circuit's
misreading of the safety valve unconstitutionally
chills petitioner's right to testify and violates this
Court's decision in Rock. 483 U.S. at 51-53.
After a conviction, a defendant is put to a Hobson's
choice: she can either (i) make post-trial statements
that conform with the jury's verdict but are contrary
to her prior sworn testimony in the hopes of receiving
a reduction under the safety valve, which may hinder
or foreclose an appeal from the conviction, or (ii)
continue to assert that her trial testimony was
truthful and lose any hope of safety-valve relief. No
evidence suggests that Congress intended such a
result when it enacted Section 3553(f).

9
9

The
punishment involved
The punishment
involved is
is severe.
severe. The
The average
average
sentence is
is more
than twice
as long
long when
when a
a mandatory
sentence
more than
twice as
mandatory
minimum
minimum is
is imposed
imposed than
than the
sentence when
when
the average
average sentence
relief from
from the
minimum
a defendant
the minimum
a
defendant receives
receives relief
sentence.2 Of
Of those
subject to
sentence.2
those drug
drug defendants
defendants subject
to a
a
mandatory
minimum
at
sentencing,
the
average
mandatory minimum at sentencing, the average
sentence was
was 126
126 months.
Defendants who
who obtained
obtained
sentence
months.33 Defendants
relief
because of
of the
the safety-valve
safety-valve provision
or because
because
relief because
provision or
they
with substantial
substantial
they provided
provided the
the government
government with
assistance received
an average
average sentence
sentence of
of 57
assistance
received an
57 months
months
4
imprisonment.4
imprisonment. Here,
district court
court stated
stated it
it would
Here, the
the district
would
have
imposed a
a sentence
sentence that
that was
was "considerably
“considerably less”
have imposed
less"
than
10-year mandatory
imposed. Pet.
than the
the 10-year
mandatory minimum
minimum imposed.
Pet.
App. 18a.
18a.
App.
These issues,
issues, moreover,
impact a
a significant
significant
These
moreover, impact
number
of cases.
cases. Convictions
for drug
offenses expose
number of
Convictions for
drug offenses
expose
harsh mandatory
mandatory miniminidefendants
to particularly
defendants to
particularly harsh
mums:
of drug-related
convictions carried
carried a
a
mums: 58.4%
58.4% of
drug-related convictions
mandatory-minimum sentence
mandatory-minimum
sentence if
if the
court granted
the court
granted no
no
relief.
relief. 55 District
District courts
courts presently
grant safety-valve
safety-valve
presently grant
relief
in about
about one-third
one-third of
of cases
cases where
where a
a mandatory
relief in
mandatory
minimum
sentence would
would otherwise
otherwise apply.6
apply.6
minimum sentence

U.S.
Sentencing Comm'n,
Comm’n, Mandatory
Mandatory Minimum
Minimum Penalties
Penalties
U.S. Sentencing
for Federal
Drug Offenses
6 (2017),
(2017), https://www.ussc.gov/sites/
https://www.ussc.gov/sites/
for
Federal Drug
Offenses 6
default/files/pdf/research-and-publications/research-publicadefault/files/pdf/research-and-publications/research-publications/2017/20171025_Drug-Mand-Min.pdf.
tions/2017/20171025_Drug-Mand-Min.pdf.
2
2

Ibid.
Ibid.
Ibid.
Ibid.
5
U.S. Sentencing
Sentencing Comm'n,
Comm’n, Quick
(FY
Quick Facts:
Facts: Drug
Drug Trafficking
Trafficking (FY
5 U.S.
2018), https://www.ussc.gov/sites/default/files/pdf/research-and2018),
https://www.ussc.gov/sites/default/files/pdf/research-andpublications/quick-facts/Drug_Trafficking_FY18.pdf
publications/quick-facts/Drug_Trafficking_FY18.pdf
6 Ibid.
6
Ibid.
3
3
4
4

10
C. The Safety Valve Is an Important Tool in
Reducing
Excessive
and
Unproductive
Incarceration in the Federal Prison System.
In addition to providing relief to individuals
convicted of lower-level drug offenses that do not
warrant lengthy incarceration, the safety valve serves
as an important check on the scale of the burgeoning
federal prison population. From 1980 to 2013, the
federal prison population increased by approximately
800%. 7 A significant portion of this increase was due
to the rise in the number of individuals incarcerated
for drug offenses.8 The prison population has declined
in recent years, primarily due to retroactive
sentencing guideline changes instituted by the U.S.
Sentencing Commission.9 But severe overcrowding and
understaffing continue to plague day-to-day prison
operations. 10 Today, more than 45% of inmates in
7 See Julie Samuels et al., Urban Inst., Stemming the Tide:
Strategies to Reduce the Growth and Cut the Cost of the Federal
Prison System (2013) ("The federal prison population has escalated from under 25,000 inmates in 1980 to over 219,000" in
2013), https://www.urban.org/sites/default/files/publication/2408
6/412932-Stemming-the-Tide-Strategies-to-Reduce-the-Growthand-Cut-the-Cost-of-the-Federal-Prison-System.PDF.
8 Charles Colson Task Force on Fed. Corrs., Urban Inst., Drivers of Growth in the Federal Prison Population (2015), https://
www.urban.org/sites/default/files/publication/43681/2000141Drivers-of-Growthin-the-Federal-Prison-Population.p df.
9 Nazgol Ghandnoosh, Sentencing Project, Federal Prisons at
a Crossroads (2017), https://www.sentencingproject.org/publications/federal-prisons-crossroads/.
10 Ibid.; see, e.g., Michelle Mark, Just 18 Workers Were
Guarding 750 Jail Inmates on the Night Jeffrey Epstein Died by
Suicide, Bus. Insider (2019), https://www.businessinsider.com/
jeffrey-epstein-jail-guards-chronic-staff-issues-2019-8.

11
11
federal prison
are incarcerated
incarcerated for
for a
a drug-offense
drug-offense
federal
prison are
11
conviction."
conviction.
The safety-valve
safety-valve plays
a key
in mitigating
mitigating the
the
The
plays a
key role
role in
prison
crisis without
without impacting
impacting public
prison population
population crisis
public
12 Excessive
safety. 12
are counterprosafety.
Excessive prison
prison terms
terms are
counterproductive
for
public
safety
goals
due
to the
ductive for public safety goals due to
the
criminological findings
findings that
individuals "age
“age out"
out” of
of
criminological
that individuals
13
the high
high crime
years.1-3 Young
the
crime years.
Young males
in the
males in
the age
age group
group
of 15
15 to
to 19
19 years
increased risk
of
of
years display
display an
an increased
risk of
involvement
in criminal
involvement in
criminal activity,
but this
activity, but
this risk
risk declines
declines
markedly
markedly by
by their
20s and
and continues
continues to
to do
so as
as
their early
early 20s
do so
14 Thus,
individuals mature
and take
on adult
Thus,
individuals
mature and
take on
adult roles.
roles.14
long-term sentences
sentences produce
produce diminishing
diminishing returns
returns for
for
long-term
public
safety with
with each
additional year
of
public safety
each additional
year of
incarceration,
while still
incarceration, while
still incurring
the substantial
substantial
incurring the
15
financial costs
costs of
of imprisonment.15
imprisonment.
financial

Fed.
Bureau of
of Prisons,
Statistics Based
Prior
Fed. Bureau
Prisons, Offense:
Offense: Statistics
Based on
on Prior
Month’s Data
Aug. 17,
17, 2019
https://www.bop.gov/about/staMonth's
Data as
as of
ofAug.
2019,, https://www.bop.gov/about/statistics/statistics_inmate_offenses.jsp.
tistics/statistics_inmate_offenses.jsp.
12 Aside
12
Aside from
from the
vast number
of incarcerated
incarcerated individuals,
individuals, the
the
the vast
number of
dramatic
ethnic disparities
in the
the federal
federal prison
sysdramatic racial
racial and
and ethnic
disparities in
prison system
be noted.
of defendants
in drug-offense
tem must
must be
noted. Two-thirds
Two-thirds of
defendants in
drug-offense
cases are
Hispanic, 25%
25% black,
black, and
and 2.9%
2.9%
cases
are people
people of
of color
color (48%
(48% Hispanic,
other races).
See Quick
supra note
other
races). See
Quick Facts:
Facts: Drug
Drug Trafficking
Trafficking,, supra
note 5.
5.
13
Rolf
Loeber
&
David
P.
Farrington,
Age-Crime
Curve
, in
in
Farrington,
Age-Crime
Curve,
13 Rolf Loeber & David P.
Encyclopedia
of Criminology
and Criminal
Justice
12-18
(Gerben
Encyclopedia of
Criminology and
Criminal Justice 12-18 (Gerben
Bruinsma
David Weisburd
Weisburd eds.,
eds., 2014),
2014), https://link.springer.
https://link.springer.
Bruinsma &
& David
com/referenceworkentry/10.1007%2F978-1-4614-5690-2_474.
com/referenceworkentry/10.1007%2F978-1-4614-5690-2_474.
14
14 Ibid.
ibid.
11
11

Pew
Charitable Trs.,
Pew Charitable
Trs., More
More Imprisonment
Imprisonment Does
Not Reduce
Reduce
Does Not
State Drug
Drug Problems:
Show No
No Relationship
Relationship Between
State
Problems: Data
Data Show
Between
Prison Terms
Terms and
and Drug
Prison
Drug Misuse
Misuse (2018),
(2018), https://www.
https://www.
pewtrusts.org/en/research-and-analysis/issue-briefs/2018/03/
pewtrusts.org/en/research-and-analysis/issue-briefs/2018/03/
more-imprisonment-does-not-reduce-state-drug-problems.
more-imprisonment-does-not-reduce-state-drug-problems.
15
15

12
Reduced terms of incarceration have also been
shown to have no ill effects on rates of recidivism.'6
The U.S. Sentencing Commission's research found
that individuals who had received reduced prison
terms for drug offenses following a 2007 guidelines
reform displayed recidivism rates that were no greater
than comparable persons serving longer prison
terms.1-7
Moreover, research shows that sentence length has
a limited deterrent effect on criminal activity for
various reasons, including that most people do not
expect to be apprehended for a crime, most people are
not familiar with relevant legal penalties, and many
who commit crimes do so with their judgment
compromised by substance abuse or mental health
problems.1-8 A 2014 National Research Council report
explains that the best available data suggest "the
U.S. Sentencing Comm'n, Recidivism Among Offenders Receiving Retroactive Sentence Reductions: The 2007 Crack
Cocaine Amendment (2014), https://www.ussc.gov/sites/default/
files/pdf/research-and-publications/research-projects-and-surveys/miscellaneous/20140527_Recidivism_2007_Crack_Cocaine_
Amendment.pdf.
17 Ibid.; cf. Pew Charitable Trs., Prison Time Served and Recidivism (2013), https://www.pewtrusts.org/en/research-andanalysis/fact-sheets/2013/10/08/prison-time-served-and-recidivism ("An analysis of data from three states—Florida, Maryland,
and Michigan—found little or no evidence that longer prison
terms for many nonviolent offenders produced either incapacitation or deterrence effects.").
18 Paul H. Robinson & John M. Darley, Does Criminal Law
Deter?A Behavioural Science Investigation, 24 Oxford J. of Legal
Stud. 173, 181 (2004); Jennifer Bronson et al., U.S. Dep't of Justice, Bureau of Justice Statistics, Drug Use, Dependence and
Abuse Among State Prisoners and Jail Inmates, 2007-2009
(2017), https://www.bjs.gov/content/pub/pdf/dudaspji0709.pdf.
16

13
successive iterations of the war on drugs . . . are
unlikely to have markedly or clearly reduced drug
crime over the past three decades." 19 Thus, for all
practical purposes, mandatory minimums and the
denial of safety-valve relief do very little, if anything,
to enhance the marginal deterrence of committing
crimes.

19 Jeremy Travis et al., The Growth of Incarceration in the
United States: Exploring Causes and Consequences 153-54
(2014), http://johnjay.jjay.cuny.edu/nrc/nas_report_on_incarceration.pdf.

14

CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari and reverse the
Tenth Circuit's decision.
Respectfully submitted,
MARY PRICE
FA1VEVI
1100 H St. NW, Suite 1000
Washington, DC 20005
(202) 822-6700
PETER GOLDBERGER
50 RITTENHOUSE PLACE
Ardmore, PA 19003
(610) 649-8200

ILANA H. EISENSTEIN
Counsel of Record
ELAN GERSHONI
MARC A. SILVERMAN
RACHEL A.H. HORTON
DLA PIPER LLP (US)
One Liberty Place
1650 Market St, Suite 5000
Philadelphia, PA 19103
(215) 656-3300
Ilana.Eisenstein@dlapiper.com

Counsel for Amid Curiae
AUGUST 26, 2019

